SEMIANNUAL REPORT

     TO CONGRESS
October 1, 2007 to March 31, 2008




      Office of the Inspector General
Nam June Paik
American, b. Seoul, Korea, 1932 - 2006
Video Flag (1985-1996)
70 video monitors, 4 laser disc players, computer, timers, electrical devices, wood and metal housing on
rubber wheels
94 3/8 x 139 3/4 x 47 3/4 in. (239.6 x 354.8 x 119.9 cm)
Holenia Purchase Fund in Memory of Joseph H. Hirshhorn, 1996 (96.4 )
Contents

Message to Congress ........................................................................................................................i

Smithsonian Institution Profile ................................................................................................... 1
     Strategic Direction .......................................................................................................................... 2

Office of the Inspector General Profile ..................................................................................... 3

Audits and Reviews ......................................................................................................................... 4
     Summary of Audit Accomplishments ........................................................................................... 5
         Table 1 – List of Issued Audit Reports and Reviews............................................................. 11
     Status of Open Recommendations .............................................................................................. 12
         Table 2 – Audit Recommendation Activity .......................................................................... 12
         Table 3 – Reports Issued with Questioned Costs ................................................................. 13
         Table 4 – Reports Issued with Recommendations that Funds Be Put to Better Use .......... 13
         Table 5 – Corrective Actions Not Yet Complete .................................................................. 14
     Oversight of Financial Statement Auditors................................................................................. 18
     Work in Progress .......................................................................................................................... 18

Management Advisories .............................................................................................................. 21

Investigations .................................................................................................................................. 23
     Summary of Investigative Activity............................................................................................... 23
        Table 6 – Summary of Complaint Activity ........................................................................... 25
        Table 7 – Summary of Investigative Caseload, Referrals, and Results................................. 25
     Other Investigative Activity: Fraud Awareness Program ........................................................... 26

Other OIG Activities ..................................................................................................................... 27
Linkwood Williams, a civilian flight instructor at Tuskegee Army Air Field, circa 1943.
                         Smithsonian Institution, Neg. ID #: 99-15428
Message to Congress

 O      n behalf of the Smithsonian Office of the Inspector General (OIG), I am pleased to
 submit this report summarizing the work of our office for the semiannual period ending
 March 31, 2008. In it, we highlight our efforts to improve the economy, efficiency, and
 effectiveness of Smithsonian Institution programs and operations, and to prevent and
 detect waste, fraud and abuse.


 During this semiannual period, we issued three audit reports, two on information security
 and one on contractor oversight by Smithsonian Business Ventures; a letter report on our
 oversight of the Institution’s annual financial statement audit; and a peer review of another
 IG office. On the investigative side, we received 17 new complaints, opened 2 cases, and
 closed 20 complaints and 4 cases, resulting in 3 resignations, administrative actions against
 employees, and recovery of nearly $200,000.

 We expanded our use of management advisories, a key tool for alerting management to
 issues we have come across during audits, reviews and investigations. These issues generally
 do not require in-depth review, but we report them to management so that the weaknesses
 may be addressed promptly. For the most part, management has reacted swiftly to mitigate
 the risks that we identified in these advisories and thereby improved the operational and
 ethical environment of the Institution.

 We are pleased to report that the Institution generally accepted our audit findings and
 recommendations and we commend Smithsonian management for implementing or
 planning appropriate actions to resolve numerous open recommendations to the extent
 allowed by current resource levels. However, we note that many corrective actions
 recommended in two audits from the semiannual period that ended a year and a half ago,
 and which are critical to security at the Institution, require significant further investments,
 investments the Institution cannot make without obtaining additional funding or cutting
 other priority programs. We also remain concerned about the Institution’s insufficient
 financial and accounting resources. We have expressed this concern in various audits over

 Office of the Inspector General                i                              Semiannual Report
   Smithsonian Institution                                                         April 2008
the last 4 years, and the Institution’s external auditors have noted these deficiencies for the
past 2 years. It is critical for the Smithsonian mission that the Institution press forward in
its attempt to upgrade its financial systems and hire and retain the staff necessary to achieve
excellence in the Smithsonian’s financial operations.

Finally, during this period we further strengthened our position at the Institution by
ensuring that revisions to Smithsonian policies reflect our mission and independence and
by proposing needed changes to Regents’ Committees’ by-laws to codify our access and
responsibilities to the Board of Regents. We also made an important physical – and
symbolic – move: our office relocated to downtown Washington, D.C., close to the
majority of the Smithsonian community. This move, which we had been advocating since
before our office was transferred to Crystal City, Virginia, also fulfilled one of the
governance reform recommendations in the June 2007 Report of the Regents’ Governance
Committee.



W        e are proud to be part of an Institution dedicated to the increase and diffusion of
knowledge. We are grateful to Smithsonian management and especially to Acting Secretary
Samper for his outstanding stewardship of the Institution during this tumultuous period.
We are looking forward to working with the new Secretary when he comes on board in
July. We also appreciate the continuing interest of the congressional oversight committees
with whom we work. Finally, we thank the Audit and Review Committee and the entire
Board of Regents for their commitment to and support of our mission.




Anne Sprightley Ryan
Inspector General




Office of the Inspector General                ii                             Semiannual Report
  Smithsonian Institution                                                         April 2008
Profiles
Smithsonian Institution Profile

The Smithsonian Institution is a trust instrumentality of the United States created by
Congress in 1846 to carry out the provisions of the will of James Smithson, an English
scientist who left his estate to the United States of America to found “an establishment for
the increase and diffusion of knowledge.” Although a federal entity, the Smithsonian does
not exercise governmental powers or executive authority, such as enforcing the laws of
Congress or administering government programs. It functions essentially as a nonprofit
institution dedicated to the advancement of learning.

Since its inception in 1846, the Smithsonian has expanded from the lone castle building to
an extensive museum and research complex that today includes 19 museums and galleries,
the National Zoological Park, and research centers around the nation’s capital, in eight
states, and in the Republic of Panama. The Institution is the steward of nearly 137 million
collection items, which form the basis of world-renowned research, exhibitions, and public
programs in the arts, history, and the sciences.

Federal appropriations provide the core support for the Smithsonian’s science efforts,
museum functions and infrastructure; and trust resources, including external grants and
private donations, supplement that. This combination of support has allowed the
Smithsonian to produce scientific research that is flexible, independent, and capable of
exploring potentially high-risk areas of inquiry. Today, the Smithsonian is the largest
museum and research complex in the world.




Office of the Inspector General              1                              Semiannual Report
  Smithsonian Institution                                                       April 2008
Strategic Direction
To support its overall mission to increase and diffuse knowledge, the Smithsonian has
developed a five-year strategic plan for FY 2006-2011 that encompasses four broad strategic
goals for enlarging its role in American society and succeeding as a complex enterprise in
the 21st century:

•   Increased Public Engagement - Enlarge the Smithsonian’s audiences, expand its degree of
    engagement with the public in Washington and throughout the country, and improve the
    quality of the Smithsonian impact on its audiences, both through its public programs and
    science research.


•   Strengthened Scientific Research   - Pursue scientific advances and discovery by focusing
    resources in areas in which the Institution has recognized strengths due to staff, research
    platforms, and collections.


•   Enhanced Management Excellence - Modernize Smithsonian management systems by
    bringing each of them to a level of quality and sophistication appropriate to an
    organization of the size and complexity of the Institution.


•   Greater Financial Strength - Provide the financial support essential to achieving the
    Institution’s goals.




Office of the Inspector General                 2                               Semiannual Report
  Smithsonian Institution                                                           April 2008
Office of the Inspector General Profile

The Inspector General Act of 1978, as amended, created the OIG as an independent entity
within the Institution to detect and prevent fraud, waste, and abuse; to promote economy
and efficiency; and to keep the head of the Institution and the Congress fully and currently
informed of problems at the Institution. The OIG reports directly to the Smithsonian
Board of Regents and to the Congress. Currently, the OIG has 16 employees, two of whom
joined us on the last day of the reporting period.


Audit Division
The Audit Division independently audits the Smithsonian’s programs and operations,
including financial systems, guided by an annual Audit Inventory that identifies high-risk
areas for review to provide assurance that the Institution’s programs and operations are
working efficiently and effectively. The Audit Division also monitors the external audit of
the Institution’s financial statements and contracts out the annual reviews of the
Institution’s information security practices. The Audit Division includes the Assistant
Inspector General for Audit, three project managers, four auditors, and one analyst. Three
additional audit positions are vacant.


Investigation Division
The Investigation Division investigates allegations of waste, fraud, abuse, gross
mismanagement, employee and contractor misconduct, and criminal and civil violations of
law that have an impact on the Institution’s programs and operations. It refers matters to
the U.S. Department of Justice whenever the OIG has reasonable grounds to believe there
has been a violation of federal criminal law. It also identifies fraud indicators and
recommends measures to management to improve the Institution’s ability to protect itself
against fraud and other wrongdoing. Two Senior Special Agents, with full law enforcement
authority, make up the Investigations Division.


Counsel
The Counsel to the Inspector General provides independent legal advice to the Inspector
General and the audit and investigative staff.



Office of the Inspector General              3                             Semiannual Report
  Smithsonian Institution                                                      April 2008
Audits and Reviews
Our audits and reviews focus on two of the Institution’s four performance goals: Enhanced
Management Excellence and Financial Strength. Specifically, we address the following high-
risk areas:


    •    Modernization of financial management and accounting operations
    •    Budget performance and integration
    •    Management of capital assets
    •    Modernization and security of the IT infrastructure
    •    Profitability of revenue operations and collection of revenues
    •    Contract administration
    •    Security and care of the national collections
    •    Safety and environmental management
    •    Human resource management

To this end, during the past semiannual period we completed 5 audits and reviews; worked
with management to close 23 recommendations; provided formal oversight of the
Institution’s annual financial statement audit, and completed substantial work on ongoing
audits.




             August Rodin, French, 1840-1917. The Burghers of Calais, (1884-89,) cast 1953-59.
             Gift of Joseph H. Hirschhorn, 1966. On display in the Hirschhorn Sculpture Garden.



Office of the Inspector General                     4                                  Semiannual Report
  Smithsonian Institution                                                                  April 2008
Summary of Audit Accomplishments

Oversight of Contractors at Smithsonian Business Ventures

This audit was the second phase of our coverage of executive compensation at Smithsonian
Business Ventures (SBV). The audit follows up on accounting weaknesses and weaknesses
in contractor oversight noted in earlier audits. Our objectives were to assess whether SBV
has adequate procedures for ensuring the accuracy of revenues reported by contractors;
SBV’s practices for collecting and recording proceeds; and whether SBV adequately
oversees contractors to ensure compliance with key contract terms.

Overall, for the contracts we reviewed, we did not find incorrect reporting of contractor
revenues to a degree that would have had a material effect on SBV’s executive
compensation. Nonetheless, SBV in many instances did not ensure revenues from
contractors were collected timely or recorded accurately. SBV needed to improve its
procedures for financial monitoring in two divisions, Journeys and Concessions. In
contrast to financial contract provisions, SBV generally provided effective oversight of
operational issues, such as the quality of contractor activities, which was sufficient to
provide reasonable assurance that contractors were complying with non-financial contract
terms.

We made five recommendations to strengthen oversight of contractors. We recommended
that management develop written procedures that clearly define employee responsibilities
for monitoring contracts, provide for periodic audits of contractor cash receipts, and
require detailed monthly reconciliations of contractor revenues. SBV management
concurred with the report’s findings and recommendations and proposed corrective
actions that will resolve the recommendations.




Office of the Inspector General             5                            Semiannual Report
  Smithsonian Institution                                                    April 2008
Federal Information Security Management Act Audits

The Federal Information Security Management Act of 2002 (FISMA) directs the Office of
the Inspector General to conduct annual evaluations of the information security program
of the Institution, which is critical to protecting the Institution’s mission. The Institution
voluntarily complies with FISMA requirements because it is consistent with its strategic
goals. FISMA sets forth federal information security compliance criteria, including annual
assessments, certification and accreditation of systems, and system security plans.

During this semiannual period, we issued a report on the annual evaluation of the
Institution’s information security program, and oversaw audits of a subset of systems as
also required by FISMA.

FY 2007 Information Security Practices Audit

During this year’s overall FISMA evaluation, we assessed (1) the effectiveness of the
Institution’s security program; (2) the Institution’s compliance with FISMA guidelines; and
(3) progress made in correcting previously reported security weaknesses.

We concluded that while the Institution has made progress in complying with FISMA
requirements, significant work remains to ensure adequate controls are in place and
operating effectively. We found weaknesses in procedures for identifying and ensuring all
major and minor systems are included in system security plans and covered in the
certification and accreditation process. Additionally, improvements are needed to
strengthen the Plan of Action and Milestones (POA&M) process and improve
documentation of test results for annual control assessments.

In addition, we noted that the Institution’s decentralized IT environment makes the
implementation and enforcement of policies and procedures limited or inconsistent.
Without the centralization of IT operations and the assignment of responsibility within
OCIO for ensuring compliance with Institution policy and procedures, management
cannot ensure adequate controls are in place.



Office of the Inspector General               6                              Semiannual Report
  Smithsonian Institution                                                        April 2008
We made four recommendations to ensure better compliance with FISMA requirements.
We recommended that management address all major and minor systems in system
security plans; develop and document procedures for complying with Institution policy IT-
930-01, which requires consolidation of system-specific POA&M activities into the
Institution-wide POA&M; and, develop, document, and implement policies and
procedures for conducting annual security control testing that include minimum
requirements for documenting test procedures. We recommended that system sponsors
report their progress on security weakness remediation to the OCIO on a regular basis.

Management concurred with the report’s findings and recommendations and has planned
actions that will resolve all our recommendations.

FY 2007 ID and Badging, C-CURE Central, and Central Monitoring Systems

As part of the subset of systems that we are required to review under FISMA, we audited
three closely-related systems: the ID and Badging, C-Cure Central, and Central Monitoring
Systems (the System), and evaluated management, operational, and technical security
controls covering those systems.

We concluded that management, operational, and technical controls were not adequate in
many areas.
    •    Management did not ensure all related subsystems or components of the
         overarching Security Management System (SMS) were identified and included
         either within the System’s certification and accreditation (C&A) package or in
         separate C&A packages, increasing the risk that unauthorized activities could occur
         within the system.


    •    Relying on assertions by the Office of Protection Services (OPS), the system
         sponsor, the Office of the Chief Information Officer (OCIO) issued an
         authorization to operate the System without verifying that known weaknesses were
         fully mitigated.


    •    Management did not identify, document, and implement required National
         Institute of Standards and Technology controls for a moderate-impact system,


Office of the Inspector General               7                            Semiannual Report
  Smithsonian Institution                                                      April 2008
         which could allow individuals to gain unauthorized access to sensitive areas within
         the Institution.


    •    OPS did not implement proper controls over user accounts, logging and
         monitoring activities, or segregation of duties between system administration and
         security management.


    •    Finally, OCIO and OPS did not ensure the System complied with required
         configuration baseline settings.

As a result, management cannot ensure that technical controls have been adequately
identified and implemented. Without adequate controls in place to enforce Institution
policies, procedures, and practices for the System, the confidentiality, availability, and
integrity of the system and the sensitive data it processes may be at greater risk than
management is willing to accept.

We made 11 recommendations to strengthen controls over the System by enforcing
Institution policies, procedures, and practices for including all subsystems or components
in the C&A process; correcting known weaknesses before authorizing systems to operate;
and documenting and implementing required security controls including baseline
configurations, logging and monitoring system activities, and enforcing proper segregation
of duties.

Management generally concurred with the report’s findings and recommendations and has
taken or planned action that will resolve all our recommendations.

Peer Review of the Federal Trade Commission’s Office of the Inspector
General

Our office performed a peer review of the Office of Audit of the Federal Trade
Commission’s Office of the Inspector General for the 18 months ended March 31, 2007.
We conducted our review in accordance with the guidelines of the President’s Council on
Integrity and Efficiency/Executive Council on Integrity and Efficiency. The objective of the
peer review was to determine whether the office’s quality control system was adequate to


Office of the Inspector General               8                              Semiannual Report
  Smithsonian Institution                                                        April 2008
provide reasonable assurance that it met generally accepted government auditing standards
and established policies and procedures.

We issued our report in December 2007, with an unmodified opinion on FTC’s system of
quality control. However, we identified numerous deficiencies with FTC OIG’s adherence
to its policies and procedures. We made recommendations for improving its compliance
with audit documentation standards and strengthening oversight of audits performed by
independent accounting firms. In addition, we observed that the FTC OIG’s audit manual
needed to be amended in certain areas to enhance its quality control procedures.


The FTC Inspector General concurred with our recommendations and planned actions that
should correct the identified deficiencies.


Quality Assurance Letter on the External Audit of the Smithsonian
Institution’s FY 2007 Annual Financial Statements

As part of our oversight of the Institution’s FY 2007 annual financial statement audit, we
issued a quality assurance letter to the Regent’s Audit and Review Committee summarizing
our observations on the audit and suggesting improvements for future audits.

On November 15, 2007, KPMG, the Institution’s independent public accountant, issued an
unqualified opinion on the Smithsonian’s FY 2007 federal special-purpose financial
statements. KPMG found no matters involving internal control that it considered to be
material weaknesses. However, KPMG reported a significant deficiency in internal control
over financial reporting regarding insufficient accounting resources and staff capacity in the
Office of the Comptroller (OC). This deficiency resulted in OC’s inability to provide
sufficient supervisory review of journal entries, account reconciliations, and supporting
schedules and led to several significant accounting errors and inconsistencies in the
preparation of the special-purpose financial statements.

KPMG also issued an unqualified opinion on the Smithsonian’s FY 2007 annual financial
statements and found no matters involving internal control that it considered to be
material weaknesses.




Office of the Inspector General              9                              Semiannual Report
  Smithsonian Institution                                                       April 2008
KPMG did, however, identify seven significant deficiencies related to: (1) accounting
resources and staff capacity; (2) lease accounting; (3) contribution accounting; (4) account
reconciliation; (5) financial statement presentation of donor restrictions; (6) reporting of
grant revenue and receivables; and (7) investments held by trustees. These deficiencies
have the potential to adversely affect the Institution’s ability to initiate, authorize, record,
process, or report reliable financial data.

KPMG’s February 2008 Management Letter contained 19 recommendations to correct the
accounting and reporting deficiencies. Smithsonian management agreed to take corrective
action on all recommendations. We noted that last year, KPMG’s Management Letter
included 23 recommendations, 11 of which management has fully resolved.

The Smithsonian’s OMB Circular A-133 audit process is a coordinated effort between
KPMG and the Defense Contract Audit Agency (DCAA). Generally, KPMG audits the
direct costs of the Smithsonian’s Washington, D.C. based activities. DCAA audits the direct
costs of the Smithsonian’s Astrophysical Observatory in Cambridge, MA, as well as the
indirect costs of the Smithsonian as a whole.

OMB Circular A-133 audit reports are not published until nearly 9 months after the
Smithsonian’s fiscal year end due to DCAA’s timetable for completing its part of the audit.
Therefore, our letter addressed the FY 2006 audits. KPMG gave the Smithsonian an
unqualified opinion on its Supplementary Schedules of Expenditures of Federal Awards
and on its compliance with the requirements of OMB Circular A-133 for each of its major
programs.

DCAA gave the Smithsonian a qualified opinion pending the results of subcontractor
audits (i.e., subcontractors to the Smithsonian’s primary contractors) done by cognizant
DCAA offices. Audits of subcontractor’s costs in the amount of $9.5 million had not yet
been received as of June 30, 2007, the date of the FY 2006 A-133 report.

In our letter report last year, we discussed three areas that needed strengthening:
communications between the external auditor and OC, performance of more substantive
interim testing, and producing financial statements quarterly. The external auditor and the
Institution made notable improvements in communications during the FY 2007 audit, but
made little progress on the other issues.


Office of the Inspector General               10                              Semiannual Report
  Smithsonian Institution                                                         April 2008
Given the significant and widespread nature of the Institution’s accounting and reporting
deficiencies as well as directives from the Board of Regent’s Governance Committee that
will require extensive resources to thoroughly respond, we recommended that Smithsonian
management develop a comprehensive written plan that (i) collects the various
recommendations and initiatives into one strategic document; (ii) prioritizes the various
tasks; (iii) maps out required resources to complete each task; (iv) assigns responsibility for
accomplishing each task; and (v) stipulates interim and final delivery dates. Senior level
officials should closely monitor the Institution’s progress in accomplishing the plan’s
objectives and provide regular progress reports to the Board of Regents.

Finally, we noted that the Institution’s schedule for completing the annual financial
statement audit should be shortened to provide timelier financial reporting. The Institution
should strive to issue its audited statements in the latter part of January – to coincide with
the winter Board of Regents’ meeting – rather than in mid-February as done currently.

                                            *****
Table 1 lists the audit reports and reviews issued during the period.

                     Table 1: List of Issued Audit Reports and Reviews
  Report
                                                     Title                                      Date Issued
  Number
                Peer Review of the Federal Trade Commission’s Office of the Inspector General       12/12/2007
   A-07-05      Oversight of Contractors at Smithsonian Business Ventures                            2/25/2008
   A-07-01      Quality Assurance Letter on the FY 2007 Financial Statement Audits                   3/31/2008
   A-07-08      FY 2007 FISMA Audit of the Smithsonian Institution's Information Security            3/31/2008
                Program
   A-07-07      FY 2007 ID and Badging, C-CURE Central, and Central Monitoring Systems              3/31/2008




Office of the Inspector General                 11                              Semiannual Report
  Smithsonian Institution                                                           April 2008
 Other Audit Activity

 Status of Open Recommendations

 Smithsonian managers made a significant effort during the last six months to implement
 many of the recommendations from audit reports issued during prior semiannual
 reporting periods. As a result, we closed 23 recommendations during the semiannual
 period. These recommendations included improvements to the Institution’s information
 systems, information systems security, executive compensation procedures and accounting
 practices at Smithsonian Business Ventures, better administration of relocation and
 recruitment payments, and strengthened physical security and inventory control measures
 safeguarding the collections at the National Museum of Natural History. Table 2
 summarizes audit recommendation activity.


                            Table 2: Audit Recommendation Activity
                         Status of Recommendations                             Numbers
Open at the beginning of the period                                              64
Issued during the period                                                         20
   Subtotal                                                                      84
Closed during the period                                                         23
Open at the end of the period                                                    61




 Office of the Inspector General             12                         Semiannual Report
   Smithsonian Institution                                                  April 2008
   Management decisions regarding questioned costs are detailed in Table 3, below.


                          Table 3: Reports Issued with Questioned Costs
                       Reports                    Number          Questioned       Unsupported
Reports for which no management decision has been   2              $187,818         $145,778
made by the commencement of the reporting period
Reports issued during the reporting period          0                 0                 0
   Subtotal                                         2              $187,818          $145,778
Reports for which a management decision was made
during the reporting period
  • Dollar value of disallowed costs                2               $44,147             $91,317
  • Dollar value of costs not disallowed            2              $143,671             $54,461
Reports for which no management decision has been   0                 0                    0
made by the end of the reporting period

   Management decisions regarding funds that could be put to better use are detailed in
   Table 4 below.


Table 4: Audit Reports Issued with Recommendations that Funds Be Put to Better Use
                        Reports                           Number      Funds Put to Better Use
Reports for which no management decision has been           0                   $0
made by the commencement of the reporting period
Reports issued during the reporting period                    0                    $0
    Subtotal                                                  0                    $0
Reports for which a management decision was made              0                    $0
during the reporting period
   • Dollar value of recommendations that were                0                    $0
       agreed to by management
   • Dollar value of recommendations that were not            0                    $0
      agreed to by management
Reports for which no management decision has been             0                    $0
made by the end of the reporting period
Reports for which no management decision was made             0                    $0
within 6 months of issuance




   Office of the Inspector General             13                             Semiannual Report
     Smithsonian Institution                                                      April 2008
While management made considerable progress in closing old recommendations,
41 recommendations made in prior semiannual periods remained open at the end of this
reporting period. Of those recommendations, 3 are over 3 years old, 4 are over 2 years old, 10
are over 1 year old, and the remaining 24 are less than 1 year old. We summarize these open
recommendations from prior semiannual periods and their target implementation dates in
Table 5, below.


Table 5: Prior Recommendations for which Corrective Actions Are Not Yet Complete
       Audit Title             Number                                                             Target
                                                  Summary of Recommendations
        (Date)                 of Recs                                                             Date
Steven F. Udvar-Hazy                 1   The CFO for Smithsonian Business Ventures (SBV)         12/31/2008
Center Business Activities               should ensure that his staff develops written
(8/25/04)                                procedures for monitoring contractor performance.

Information Systems                  1   The Director of the National Museum of Natural          10/1/2008
Controls at the National                 History should relocate web servers to a secure
Museum of Natural                        network location.
History (9/9/04)
National Air and Space               1   The CFO of SBV should develop and implement             12/31/2008
Museum Mall Simulators                   written policies and procedures for contractor
(2/25/05)                                selection.

Bank Reconciliations                 1   The Comptroller, in collaboration with the units,       7/31/2009
(9/28/05)                                should establish an oversight process for ensuring
                                         that revenues are accurately recorded and reviewed.

Internal Control                     2   The CFO should verify that charges for banking          7/31/2009
Weaknesses in Cash                       services are valid and reasonable in accordance with
Management and Banking                   the Institution’s current agreements with the banks,
Activities                               ensure a provision is incorporated into future
(2/14,/06)                               banking agreements to allow for a monthly analysis
                                         of bank fees, and formalize the controls
                                         recommended to OC into a written policy to ensure
                                         current and future OC employees have appropriate
                                         operating guidance and to better document controls
                                         over cash management and other financial
                                         management activities.
Review of Smithsonian                1   The CIO should require that employees who have          4/30/2008
Institution Information                  significant computer responsibilities report their
Security Practices                       plans for meeting the specialized training
(2/16/06)                                requirements at the beginning of the fiscal year, and
                                         monitor employee progress during the year to ensure
                                         that training is completed.

   Office of the Inspector General                  14                               Semiannual Report
     Smithsonian Institution                                                             April 2008
       Audit Title             Number                                                               Target
                                                  Summary of Recommendations
        (Date)                 of Recs                                                               Date
Employee and Contractor              4   The Deputy Secretary and COO should replace               3/31/2008
Screening Measures                       NACIS with a system that will better meet Institution         to
(8/21/06)                                requirements. The Director of OPS should ensure           9/30/2008
                                         that background investigations are or have been
                                         completed for 936 individuals who had no record of
                                         an investigation; comply with Smithsonian
                                         Directives 212 and 213 by processing NACIs and
                                         FFIs when required; and work with the Director of
                                         OHR to revise SD 212 and 213.
Physical Security and                3   The Director of OPS should prioritize the repair,         9/30/2008
Inventory Control                        replacement, and upgrading of security devices                to
Measures to Safeguard the                identified in the 2005 Assessment Report; and             1/1/2010
National Collections at the              prepare a comprehensive budget and timeframe for
National Museum of                       correcting the cited weaknesses. The Director,
Natural History                          NMNH should direct the Department of Mineral
(2/29/06)                                Sciences to conduct a complete inventory and
                                         develop a follow-up plan to locate all missing objects;
                                         and, instruct the Associate Director, Registrar, and
                                         Assistant Director for Information Technology to
                                         develop and implement a plan to update and convert
                                         electronic and paper records so they are consistent in
                                         documenting the status of the collections inventory.
Executive Compensation               3   The CEO of Smithsonian Business Ventures should           1/31/2008
at Smithsonian Business                  ensure that SBV develops a 3- to 5-year strategic plan        to
Ventures, Phase I                        for approval by the SBV Board of Directors and the        1/31/2009
(1/19/07)                                Secretary; reconcile annual financial targets and
                                         actual performance to approved long-term plan goals
                                         and consider them when making compensation
                                         decisions; more closely link operational goals that are
                                         long-term drivers of net gain to growth strategies in
                                         approved long-term strategic plans; ensure that an
                                         annual examination-level attestation engagement by
                                         an independent public accountant on SBV’s net gain
                                         and other key financial measures to ensure that
                                         SBV’s reported financial results are complete,
                                         accurate, and reliable for calculating annual incentive
                                         awards as well as for other Institution uses. The
                                         Secretary should re-examine whether market-based
                                         compensation is the appropriate strategy for SBV
                                         and, if so, whether the it provides the most effective
                                         incentives to achieve long-term net gain growth.




   Office of the Inspector General                   15                                Semiannual Report
     Smithsonian Institution                                                               April 2008
      Audit Title             Number                                                                   Target
                                                   Summary of Recommendations
       (Date)                 of Recs                                                                   Date
FY 2006 FISMA Review of             3    The CIO should establish Institution-wide controls          3/31/2008
the Smithsonian                          to ensure that major applications are not placed into           to
Institution's Information                production before formal certification and                  7/30/2010
Security Program                         accreditation and formal authorization to operate;
(4/20/2007)                              establish procedures to ensure existing policies
                                         requiring the use of standard baselines are
                                         implemented and enforced; and consider adopting
                                         industry-accepted baselines. If OCIO decides to use
                                         their own baselines, the CIO should compare them
                                         to industry-accepted baselines and update them
                                         where necessary to ensure the Institution’s baselines
                                         address all known configuration options.

                                                                                                         *
Development and                     1    The Director of External Affairs should promptly      1/31/2008
Membership Information                   implement standard security configuration baselines
System (DMIS)                            for the DMIS Oracle database and each server
(5/16/07)                                supporting DMIS; document on the baseline where
                                         recommended security controls have not been
                                         implemented and provide valid business reasons; and
                                         include the completed baseline in the system security
                                         plan as part of the C&A package.

FY 2006 Smithsonian                 8    The Chief Information Officer should centralize             2/28/2008
Institution Network                      administration of SInet accounts for all SInet users            to
(SINet) Audit                            within OCIO, with the exception of OIG; enforce             9/30/2008
(8/10/07)                                policies and procedures for ensuring that vendor
                                         patches and security hot-fixes are installed timely;
                                         review results of technical testing to ensure
                                         weaknesses identified have been addressed by
                                         management or identified in OCIO scans and ensure
                                         critical weaknesses are addressed first; enforce
                                         separation of duty controls noted in the SInet system
                                         security plan and specifically segregate system
                                         administration roles from security roles; require
                                         existing users of SInet who do not have signed
                                         agreements on file to re-sign user agreements;
                                         develop and implement procedures to ensure that
                                         the director of each museum, research institute, and
                                         office retains signed user agreements for non-
                                         Smithsonian personnel working in their units as
                                         required by SD 931; revise the documented SInet risk

  *
    Management submitted a request to extend the target implementation date subsequent to the close of the
  reporting period.

  Office of the Inspector General                    16                                  Semiannual Report
    Smithsonian Institution                                                                  April 2008
      Audit Title             Number                                                               Target
                                                 Summary of Recommendations
       (Date)                 of Recs                                                               Date
                                        assessment to reflect all requirements from NIST SP
                                        800-30; and, develop, document, and implement
                                        procedures to ensure future risk assessments address
                                        all areas identified in NIST SP 800-30.
Friends of the National             8   The Executive Director of FONZ should determine           12/31/2007
Zoo Revenue Operations                  why FONZ’s COGS appears to be higher than                     to
(8/28/07)                               average and make appropriate changes, including           12/31/2010
                                        possible joint purchasing opportunities with SBV;
                                        establish aggressive, but achievable, financial targets
                                        for revenue and net contribution growth and explore
                                        all options, including the feasibility of outsourcing
                                        merchandise operations, for achieving these targets;
                                        establish a process for documenting and evaluating
                                        visitor feedback on FONZ’s operations and the
                                        results of follow-up efforts to resolve customer
                                        service issues; reevaluate the policy of allowing free
                                        parking for FONZ and Zoo employees and others;
                                        reexamine the unlimited free parking benefits
                                        enjoyed by FONZ members and consider limiting
                                        free member parking during peak months; and
                                        establish a more disciplined system for developing,
                                        approving, and documenting formal, written
                                        operational policies and procedures and ensure that
                                        policies and procedures are implemented as
                                        designed. The Board of Directors of FONZ should
                                        direct the Executive Director to document a
                                        thorough risk assessment and report to the Board on
                                        FONZ’s system of mitigating controls. The directors
                                        of the Zoo and OFEO, and the Executive Director of
                                        FONZ, in consultation with the Secretary, should
                                        fully examine the options described in our report
                                        during the master planning process.

Human Resources                     4   The Chief Information Officer should enforce the          4/30/2008
Management System                       Institution and HRMS-specific access control policy           to
(September 19, 2007)                    and require all current users who do not have an          6/30/2008
                                        approved access request form on file to complete the
                                        form; identify, document, and implement
                                        segregation of duty controls for sensitive
                                        administrative and system support functions; enforce
                                        Institution policy and procedures requiring the
                                        weekly review of logs and monthly submission of
                                        management reports to OCIO; and, document final
                                        baselines for the HRMS operating system and

  Office of the Inspector General                   17                                Semiannual Report
    Smithsonian Institution                                                               April 2008
    Audit Title             Number                                                             Target
                                               Summary of Recommendations
     (Date)                 of Recs                                                             Date
                                      database after determining what Institution-wide
                                      baselines will be adopted and specifically note where
                                      suggested security settings have not been
                                      implemented for valid business purposes.



Oversight of Financial Statement Auditors

Beginning with the FY 2006 audit, the OIG assumed responsibility for the oversight of the
annual financial statement audit, which is currently conducted by KPMG. In prior years,
KPMG was under the supervision of the Institution’s Comptroller. Because of our
organizational independence, OIG oversight of this audit engagement strengthens
assurances that the external auditor’s report and conclusions are reasonable. Because of
our limited resources, we will continue to rely on external auditors for the audited financial
statements, but will review the audit documentation and evaluate key judgments to provide
added assurance that the auditor’s work complies with professional standards.


Work in Progress

Oversight of Information Security Program

We have engaged an outside consultant to perform focused assessments of two of the
Institution’s major IT systems in accordance with the Federal Information Security
Management Act (FISMA). The two major information systems we selected for review are
the National Museum of Natural History (NMNH) Research and Collection Information
System (RCIS) and Smithsonian Astrophysical Observatory’s (SAO) Scientific Computing
System. NMNH RCIS is a searchable list of specimens, illustrations, anthropological
collections, and summary information about the NMNH collections. The Scientific
Computing System at SAO provides infrastructure and scientific computing services for the
scientific, technical, and administrative staffs. We plan to issue two separate reports.


We also plan to engage an outside consultant to perform an evaluation of the Institution’s
overall information security program and compliance with FISMA. The FISMA evaluation

Office of the Inspector General                   18                               Semiannual Report
  Smithsonian Institution                                                              April 2008
will address the Institution’s information system inventory; certification and accreditation
processes; security configuration policies and procedures; plans of action and milestones;
computer security incident handling; and computer security awareness training.


Workers’ Compensation Program

We continue to work on the audit of the Smithsonian Institution’s management of the
workers’ compensation program. During the early stages of our review we identified
deficiencies in the continuation of pay (COP) portion of the program and plan to issue a
separate report to obtain more timely resolution of the identified program weaknesses.

The overall objective of our audit is to evaluate whether the workers’ compensation
program has been operating in accordance with U.S. Department of Labor (DoL)
regulations, policies and procedures under the Federal Employees’ Compensation Act. We
will assess whether adequate procedures are in place for (1) timely reviewing and
submitting claims; (2) monitoring claims to ensure that case files are accurate and up-to-
date and that claimants return to work as soon as possible; and (3) reconciling charge-back
costs and recovering overpayments promptly. The audit will cover a sample of cases from
charge-back years (July 1 through June 30) 2005 through 2007. We will use data from the
past five years for our analysis and comparison of trends, including information reported
through DoL’s Safety, Health and Return-to-Employment (SHARE) initiative.

Agreed-Upon Procedures Reviews of the Expenses of the Former Secretary
of the Smithsonian Institution and Former Chief Executive Officer of
Smithsonian Business Ventures, 2006-2007

At the request of the Audit and Review and Governance Committees of the Board of
Regents, we contracted with an independent accountant to perform an agreed-upon
procedures review of the former Secretary’s expenses. We will cover the period FY 2006
through March 2007, when the former Secretary resigned. We are also overseeing a parallel
review of the expenses of the former Chief Executive Officer of Smithsonian Business
Ventures. We will cover the period FY 2006 until his resignation in July 2007. We plan to
issue the independent accountant’s reports, as well as our transmittal letters commenting
on the reports, by late spring.

Office of the Inspector General              19                             Semiannual Report
  Smithsonian Institution                                                       April 2008
   Audit of Travel Oversight

   We are conducting a performance audit of travel oversight. The objectives of this audit are
   to assess whether (1) policies and procedures related to travel expenditures are adequate
   and in compliance with applicable laws and regulations; (2) key controls for managing
   travel are operating properly in the units; (3) Smithsonian executives, Regents, and staff are
   traveling for authorized purposes and for reasonable amounts; and (4) cardholders are
   paying their travel card obligations in a timely manner. The audit is covering travel for the
   period FY 2006 through the first quarter of FY 2008.




"City of Washington From Beyond the Navy Yard" - Oil painting by George Cooke, 1833.
This painting is part of the Anacostia Community Museum’s 40th Anniversary Exhibition, “East of The River:
Continuity and Change .”




   Office of the Inspector General                    20                                  Semiannual Report
     Smithsonian Institution                                                                  April 2008
Management Advisories
During the course of investigations (and occasionally audits), the OIG learns of issues or
problems that are not within the immediate scope of the investigation or audit and may not
merit the resources of a full-blown review, yet require management attention. To alert
management to these issues so that they may be addressed promptly, we send Management
Advisories or Investigative Memorandums on Management Issues and ask for a response.
During this reporting period, we issued advisories on the following:

    •    We determined that the Institution lacks a formal policy addressing the donation of
         services valued at less than $50,000. We noted that the lack of a written policy
         regarding pro bono work valued at less than $50,000 may create risks to the
         Institution that may not be acceptable, such as a lack of accountability. While
         services of nominal value, or one-time volunteer efforts, may not need such
         formalities (and these formalities may discourage such donations), we noted that
         the $50,000 threshold is too high. As a result of our advisory, the Office of General
         Counsel, the Office of Contracting and the Office of External Affairs will amend
         applicable Smithsonian policies to require a written agreement for gifts of goods or
         services valued at $10,000 or more, as well as develop a process to manage and track
         such agreements.


    •    We determined that the Institution lacks a formal policy that addresses discipline
         for certain executives at the Institution. In particular, we were concerned about
         there being no requirement that supervisors of these executives document
         counseling or other discipline. To increase accountability, mitigate potential
         liability, and to make the process for employee discipline more uniform throughout
         the Institution (and thereby decrease the perception that executives are treated
         more leniently than other employees), we noted that the Institution should establish
         guidelines regarding discipline for executives and, at a minimum, require that any
         discipline for executives should be documented. In response to our advisory, the
         Director of the Office of Human Resources will recommend an appropriate change
         in policy.


Office of the Inspector General               21                             Semiannual Report
  Smithsonian Institution                                                        April 2008
      •   We determined that the Institution lacks a policy requiring training of new
          executives at the Institution, especially training in the Institution’s Standards of
          Conduct. The failure to ensure that those in leadership positions are fully versed in
          the rules and procedures of the Institution, especially the ethical rules, decreases
          accountability and makes the Smithsonian vulnerable to questionable conduct that
          could undermine confidence in the Institution. As a result of our advisory, the
          Director of the Office of Human Resources has convened a task force to develop
          recommendations to address orientation for new senior executives.

                                                *
A previously reported OIG investigation into employee misconduct at a Smithsonian
facility also included a management advisory with three recommendations on issues that
management has now addressed.


      •   We had determined that the policy on alcohol consumption by employees, residents
          and guests at a Smithsonian facility needed to be clarified. Management completed
          revisions of the unit-level directive for employees that prohibits alcohol
          consumption on non-resident parts of the facility unless approved. Management
          also revised the lease agreements and Code of Conduct for residents of that facility
          to limit alcohol consumption to residences and prohibit entering other parts of the
          facility or operating a motor vehicle while under the influence of alcohol.


      •   We had recommended that the policy on guest and employee after-hour access to
          the facility be clarified. Management completed policy revisions that limit access to
          non-housing facilities and grounds only to program-related activities and place
          restrictions on the use of non-resident areas of the facility by guests of residents.


      •   We had expressed concerns about the physical security of that facility. Management
          completed a security review and initiated physical security improvements including
          improvements to access control, monitoring capabilities and assignment of full-
          time security personnel.




*
    Semiannual Report to Congress, April 1, 2005 – September 30, 2005, p.21.

Office of the Inspector General                     22                         Semiannual Report
  Smithsonian Institution                                                          April 2008
Investigations
During the reporting period, we received 17 complaints, opened 2 cases and closed 20
complaints and 4 cases, resulting in 3 resignations, 1 admonishment, and recoveries and
restitution totaling nearly $200,000.


Summary of Investigative Activity

During this period, OIG special agents opened 2 cases. The following descriptions
summarize the more significant matters that they were able to close in the last six months.


Wire Fraud

We previously reported the conviction of a former employee who pled guilty to wire fraud
and that his sentencing had been delayed. We can now report that the former employee
was sentenced to 5 months’ incarceration followed by 3 years’ supervised probation. The
court also ordered that the former employee pay the Institution $84,344.22 in restitution.


Violations of the Smithsonian Standards of Conduct

OIG investigators substantiated allegations that a senior official violated multiple
provisions of the Institution’s Standards of Conduct by engaging in conduct that
constituted or created an appearance of conflicts of interest and that was not in the best
interests of the Institution.

The case was referred to the U.S. Attorney’s Office, but prosecution was declined. The
official involved resigned and paid the Institution back $2,066.55 for costs found to be
inappropriately reimbursed or incurred.




Office of the Inspector General              23                             Semiannual Report
  Smithsonian Institution                                                       April 2008
Davis-Bacon Act Violations

As a result of findings from a joint investigation with the Department of Labor’s (DoL)
Office of Inspector General, the DoL Wage and Hour Division determined that certain
subcontractors on a Smithsonian construction project had failed to pay prevailing wages as
required under the federal Davis-Bacon Act. Accordingly, $113,140.71 was directed to be
paid to the employees who had been underpaid.


Improper Contracting

Responding to a complaint that an employee had an improper relationship with a
contractor, OIG special agents determined that the employee had violated the conflicts of
interest prohibition in the SI Standards of Conduct. Management took administrative
action against the employee.


Plagiarism

A complainant reported plagiarism in a Smithsonian publication. OIG special agents
assisted in ensuring that an “errata” sheet was included in the current publication giving
proper attribution to appropriate individuals. That publication has now been reprinted
with appropriate revised text credits.




                                          *****




Office of the Inspector General              24                             Semiannual Report
  Smithsonian Institution                                                       April 2008
 The following table summarizes complaint activity for this reporting period:

                            Table 6: Summary of Complaint Activity
                                   Status                                    Number
  Open at the start of the reporting period                                         33
  Received during the reporting period                                              17
     Subtotal                                                                       50
  Closed during the reporting period                                                20
  Total complaints pending                                                          30

 The following table summarizes investigative activity for this reporting period:

 Table 7: Summary of Investigative Caseload, Referrals, and Results
                            Investigations                           Amount or Number
Caseload
    Cases pending at beginning of reporting period                            8
    Cases opened during the reporting period                                  2
        Subtotal                                                              10
    Cases closed during the reporting period                                  4
    Cases carried forward                                                     6
Referrals for Prosecution
    Pending at the beginning of the period                                      3
    Referred for prosecution                                                    1
    Pending at the end of the period                                            3
Successful Prosecutions
    Convictions                                                                 1
    Fines
    Probation                                                                  1
    Confinement                                                                1
    Monetary Recoveries and Restitutions                                  $86,410.77
Administrative Remedies
    Terminations
    Resignations                                                                3
    Reprimands or admonishments                                                 1
    Reassignments
    Demotions
    Suspensions
    Monetary loss prevented
    Funds Recovered                                                      $113,140.71




 Office of the Inspector General                25                           Semiannual Report
   Smithsonian Institution                                                       April 2008
Other Investigative Activity: Fraud Awareness Program
We continue our efforts to reach out to Institution staff and engage them in our fraud
awareness program and facilitate the prevention of waste, fraud and abuse. During this
reporting period, OIG special agents focused on working with employees who play a role in
contracting, where there is always the risk of fraud. Thus, OIG made two fraud awareness
presentations: one to employees attending a Simplified Acquisition class and the other to
employees attending Contracting Officer’s Technical Representative Training.

Also during this period, OIG investigators initiated pro-active measures to increase
awareness by approaching the Office of Human Resources with a proposal that an OIG
presentation be incorporated into the orientation sessions for new employees. As a result,
OIG investigators will now be a part of the orientation training and will make a
presentation that consists of an introduction to the OIG and fraud awareness.




                                                 This rare wattled crane chick
                                                 hatched at the Smithsonian’s
                                                 National Zoo on March 30. The
                                                 chick is the National Zoo’s first in
                                                 its 118-year history. The chick’s
                                                 sex won’t be known until blood
                                                 tests are completed. Visitors can
                                                 see the wattled crane chick and its
                                                 parents at the Zoo’s Bird House
                                                 outdoor exhibit. There are 63
                                                 wattled cranes in the North
                                                 America zoo population and an
                                                 estimated 8,000 in the wild.

                                                 Adult wattled cranes stand 6 feet
                                                 tall and weigh approximately 14
                                                 pounds.

                                                 Photo Credit: National Zoological
                                                 Park




Office of the Inspector General             26                                    Semiannual Report
  Smithsonian Institution                                                             April 2008
Other OIG Activities
Congressional Liaison

During this semiannual period, OIG met
with staff from congressional oversight
committees. We discussed Smithsonian
governance issues and funding challenges as
well as the OIG FY 2008 audit inventory. At
the request of the Senate Appropriations
Subcommittee, we provided updates on the
status of roof leaks at the National Museum
of the American Indian Cultural Resources Center, delays in the core construction project
at the National Museum of American History, and the use of proceeds from the sale of
Smithsonian facilities. We also responded to a request from the Chairman of the House
Committee on Oversight and Government Reform to all OIGs for information on the
number, age, and status of open recommendations.

We briefed Government Accountability Office staff on matters relating to ongoing
governance reform for their report on governance at the Smithsonian, which is due in mid-
May. We also provided information for GAO’s ongoing review of the role of Inspectors
General at federal entities, answering a detailed questionnaire about our office’s
responsibilities, reporting relationships, communications, and resources.

In addition, we are responding to requests from the Senate Rules Committee Chairman,
the ranking member of the Senate Finance Committee, and the Chairman of the
Committee on House Administration to review the travel and other expenses of the former
Director of the National Museum of the American Indian.




Office of the Inspector General            27                            Semiannual Report
  Smithsonian Institution                                                    April 2008
Legislative and Regulatory Review

The Inspector General Act mandates that our office monitor and review legislative and
regulatory proposals for their impact on the Smithsonian’s programs and operations and
with an eye toward promoting economy, effectiveness, efficiency, and preventing fraud,
waste, abuse and mismanagement.


Amendments to the Audit and Review Committee Charter

During this reporting period, we proposed, and the Regents adopted, amendments to the
charter of the Regents’ Audit and Review Committee to clarify and codify the Inspector
General’s role and authority within the Institution. In particular, the amendments added
language specifying that the Inspector General reports to the Board of Regents through the
Committee and otherwise, as the IG deems appropriate. The purpose of this new language
was to clarify that our office may contact the full Board or members of the Board, without
having to go through the Committee. We also eliminated language that provided for the
Committee to evaluate the IG’s performance so as to be consistent with the practice
throughout the IG community that IGs are not rated by the heads of their entities.


Comments on Draft Smithsonian Policies and Directives

During this period, we also reviewed and commented on draft revisions to a number of
Smithsonian Directives.

Smithsonian FOIA Policy

We provided comments on revised Smithsonian Directive 807, entitled Requests for
Smithsonian Records. The Directive now contains a separate section explaining that the
OIG handles requests for records separately from the Institution, although it follows the
same policies. Smithsonian management has recently proposed revising the Directive
again, and we will comment on the new version as well.




Office of the Inspector General             28                             Semiannual Report
  Smithsonian Institution                                                      April 2008
Smithsonian Institution Statement of Values and Code of Ethics

Our office also provided comments on drafts of the Institution’s Statement of Values and
Code of Ethics, which the Board of Regents approved at their January 28, 2008 meeting. In
this Statement, the Institution sets forth its core values and the overarching ethical
standards that apply to the entire Smithsonian community.

Smithsonian Directive on the Office of the Inspector General

Our office worked with management to update Smithsonian Directive 107, the official
Smithsonian statement setting forth the authority and responsibilities of our office. The
new Directive will clarify that the IG is appointed by and reports to the Regents, rather than
the Secretary (as was the case until July 2006); better explain our reporting responsibilities
to Congress; and explain our duties and those of all Smithsonian staff regarding the IG
function.


Involvement in Professional Organizations

The Smithsonian OIG continues to participate in the work of professional organizations.
Currently, we are involved with the PCIE/ECIE’s Peer Review Guide Update Project. This
project is being conducted under a working group of the Federal Audit Executive Council.
Its goals are to (1) complete by December 31, 2008, an updated peer review guide for the
2009/2010 review cycle and (2) develop related training materials.

Our involvement focuses on updating the guide to reflect changes in audit standards,
especially those that stem from the 2007 revisions to Government Auditing Standards since
the guide’s last revision in FY 2005.




Office of the Inspector General              29                             Semiannual Report
  Smithsonian Institution                                                       April 2008
PCIE/ECIE Award

Finally, we are proud to report that our office received an Executive Council on Integrity
and Efficiency (ECIE) Award for Excellence. The October 2007 award recognized the
outstanding dedication and teamwork of the OIG staff that resulted in greater transparency
and accountability and in improved
administration of the Smithsonian
Institution. A series of OIG reports on key
security-related matters at the Smithsonian
prompted needed safeguards and OIG
reports on executive compensation and
expenditures captured considerable
congressional and public attention, and
contributed to a focused reassessment of the
Smithsonian’s governance structure.               Stuart Metzger, Assistant Inspector General for Audits,
                                                       receives the ECIE award on behalf of the OIG from
                                                       Dr. Christine Boesz, the National Science Foundation
                                                       IG and Vice-Chair of the ECIE.




Office of the Inspector General                   30                                     Semiannual Report
  Smithsonian Institution                                                                    April 2008
The back cover depicts Fiesta de Santiago Apostól | Festival of St. James the Apostle
Nahuas de la Sierra Norte de Puebla
Santiago Yancuictlalpan, Puebla
07-1996

Image Credit: National Museum of Natural History
                Office of the Inspector General
                             HOTLINE
                              202-252-0321
                                               or

                          http://www.si.edu/oig/form.htm

                                           or write to


    Smithsonian Institution OFFICE OF THE INSPECTOR GENERAL
       PO Box 37012, MRC 524, WASHINGTON, DC 20013-7012
IF REQUESTED, ANONYMITY IS ASSURED TO THE EXTENT PERMITTED BY LAW. INFORMATION IS CONFIDENTIAL
